Certification of Counsel
I, Brent L. Alford, certify that this petition is presented in good faith and not for any delay.
That the claims have merit which is supported by the record.

HfcAjuAJr
Brent L. Alford, pro se

m

CERTIFICATE OF COMPLIANCE
No. 20-5731
Brent L. Alford,
Petitioner,
v.
Sam Cline, et al.,
Respondents.
As required by Supreme Court Rule 33.1(h), I certify that the Motion for Rehearing or in the
Alternative Transfer to The United States District Court

words, excluding the

parts of the Motion that are exempted by Supreme court rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

Ics-Z.1-

, 2020

Brent L. Alford

